M-126718

Consumer Credit Card Agreement and Disclosure Statement
Effective Date 02/01/2021
1.0 : ISSUER. Your Zions First National Bank Card has been issued by Zions Bancorporation, N.A. dba Zions First National

Bank. Your Account is with Zions Bancorporation, N.A. (“Bank”) and will be administered by the Bank’s Bankcard Services
department. Your Credit Card, monthly statement, and other associated materials will bear the Zions First National Bank,
National Bank of Arizona, Nevada State Bank, or Vectra Bank Colorado name.
1.1 : THIS CREDIT CARD AGREEMENT ("Agreement") is a legal contract between you and Zions Bancorporation, N.A. that
governs your credit card Account. It replaces all previous agreements, addendums, disclosures and amendments for your
credit card Account. This Consumer Credit Card Agreement includes the disclosures provided on the card carrier containing
the Card and any subsequent disclosures, all of which are fully incorporated herein by reference, and constitutes your
Agreement with us that covers your credit card Account. Review this Agreement carefully and keep it in your records.
1.2 : ACCEPTING OR DECLINING THIS AGREEMENT. This Agreement is automatically accepted by you on the earlier of
(a) 15 days after you received your Card, or (b) immediately upon any use of your Card or Account. If you wish to decline this
Agreement, do not use your Card or Account, and cancel them within 15 days of receiving your Card by calling 1-888-7585349 or writing to the address on the carrier containing your Card.
1.3 : DEFINITIONS FOR THIS AGREEMENT. The definitions listed below will apply throughout, both in this Agreement and in
your monthly statement.
Bank: Means Zions Bancorporation, N.A., the issuer of your Card and holder of your Account.
We, us, and our: Refer to Bank.
You and your: Refer to the one or more persons who receive credit from us and are liable on the Account, including the
primary applicant and any co-applicant.
Account: Means your Visa or MasterCard credit card account, together with the associated account number, all that we grant
under that account, and all Card(s) issued and any Credit Card Checks made available under that account.
Card Agreement: Means this Agreement, together with your Card Application and the carrier containing your Card.
Card Application: Means your credit application for your Account.
Card: Means the credit card(s) and associated card number(s) that Bank issues as part of your Account.
Credit Limit: Means the maximum dollar amount of credit that Bank has authorized for your Account.
Outstanding Balance: Means the entire amount owing on your Account at any given time.
Cash Back: Is a cash-back rebate program of Bank for certain types of Accounts.
Credit Card Checks: Means checks that Bank may provide you to access your Account.
Margin: The applicable Margin for your credit card Account is determined by Bank. The Margin depends on Bank’s
determination of your creditworthiness, the type of credit card Account you have, and the type of transaction for which you
use your Card. The Margin applicable to your credit card Account may be changed by Bank and Bank will notify you of such
change.
1.4 : AMENDING THIS AGREEMENT. We may amend, add, or delete (i.e., “change”) any term of this Agreement at any
time. We will notify you of any change, and any right to reject that change, as required by law. To reject a change, you must
inform us in the manner and time period specified in our notice. We will then close your Account and you will be required to
pay your Outstanding Balance as provided by applicable law. If a change requires your consent, we may obtain that consent
from you verbally, in writing or electronically. Whether or not consent is required, any further use of your Account after the
effective date of the change shall constitute your consent and acceptance. Unless a longer period is specified by law, a
reasonable period for any notice to you shall not exceed 25 days from being sent. Notices may be printed on, or enclosed
with, your monthly statement.
1.5 : CREDIT LIMIT. Your Account’s initial Credit Limit appears on the carrier containing your Card. Your updated Credit Limit
appears on each monthly statement. You must not use or allow others to use your Card or Account in a way that causes your
Outstanding Balance to exceed your Credit Limit. You are liable for the Outstanding Balance even if it exceeds your Credit
Limit. We may increase or decrease your Credit Limit at any time and will notify you of such change. You may request a
change in your Credit Limit by contacting us.
2.0: THE CARD. You agree to sign the back of the Card before using it. The Card is the property of the Bank. We can require
you to surrender your Card to us, or to any merchant or financial institution where you have presented the Card. The Card is
not valid after its printed expiration date, but we may suspend, cancel, replace or renew your Card at any time. You may
request additional Cards at no additional cost for family members or other persons that you authorize to use your Account,
but you remain responsible for all of their charges.

3.0 : USING YOUR CARD AND ACCOUNT. Subject to your Credit Limit and the other restrictions in this Agreement, card

network rules and the law, your Card and Account can be used for the following:
3.1 : Purchases. The Card may be used to purchase or lease goods or services wherever the Card is accepted.
3.2 : Cash Advances. The Card may be used to obtain cash advances from your Account (1) in person at the Bank or any

participating financial institution, (2) by electronic online cash advance to another account, or (3) ATMs in the Bank network or
other participating ATM networks (listed on the back of your Card). Transaction fees apply to cash advances. Certain
transaction limits apply, such as restricting the sum of all ATM and electronic online cash advances in your Account to $500
(or $2000 limit for Signature accounts) or less on any calendar day. Some ATMs have other limits. Cash Advances may not
exceed 25% of Credit Limit (only applicable to AmaZing, Premier, Elite, Reserve, Agility Cash, Clarity, and Vivid Rewards
card products). Based on risk, we may further limit cash advances in our sole discretion. We have no obligation to you to
enforce such transaction limits, and you owe all cash advances made. Using your Card to withdraw cash from an ATM
located outside of the United States will create a cash advance from and charge to your credit card Account, even if you
select withdrawal from a checking, savings, or other type ofaccount. “Quasi-cash transactions” such as using your Card for
money orders, traveler’s checks, foreign currency, lottery tickets, or gambling chips are treated as cash advances, not
purchases.
3.3 : Balance Transfers. You can request a balance transfer to your Account. You may not use a balance transfer to pay off
other debts to us. You may only make a balance transfer to pay accounts in your name. Allow 3 to 4 weeks to process your
balance transfer request. During that time, you should continue making payments to those accounts. Transaction Fees apply.
You will not earn any rewards points or cash back rebates on a balance transfer.
3.4 : Credit Card Checks. We may provide Credit Card Checks to access your Account. Use of a Credit Card Check creates
a cash advance. Transaction Fees apply. Unused Credit Card Checks are the Bank’s property and must be returned upon
request. We can revoke your privilege to use Credit Card Checks at any time, without cause or notice. You cannot stop
payment on a Credit Card Check.
4.0: MONTHLY STATEMENTS. We will send you a monthly statement summarizing each transaction on your Account during
the preceding billing period. Your monthly statement will show the total amount you owed at the end of the billing period, your
minimum payment due, your payment due date (which is at least 25 days from the monthly statement closing date), and other
important information. We send your monthly statement to only one address, even if the Account has multiple owners. See
the “BILLING RIGHTS SUMMARY” section near the end of this Agreement for important information (including the need to
promptly review your monthly statement and report any errors).
5.0: HOW THE NEW BALANCE IS DETERMINED. The total amount you owe us at the end of the current billing period
appears as the “New Balance” on your monthly statement. The Outstanding Balance at the end of the previous billing period
is called the “Previous Balance”. The New Balance is determined by taking the Previous Balance and (1) subtracting any
payments and credits received by us during the current billing period and then (2) adding any purchases, cash advances,
balance transfers, interest charges, fees, and other adjustments.
6.0 : PAYMENTS. You must pay all amounts due on your Account according to the terms of this Agreement. Payments must

be drawn on U.S. dollars deposited in the United States. If we accept any other payment, you must pay all conversion fees,
bank collection fees and other expenses we may incur. (Such fees and expenses are treated as purchases.) Do not send
cash payments.
6.1 : Payment Due Date. Your payment due date is the same date each month. If the minimum payment is not received by
5:00 p.m. on the due date, in the manner and at the location specified in the billing statement, there may be a delay in posting
your payment to your Account. Such delay may result in a late payment fee and additional interest charges.
6.2 : Minimum Payment Amount. If the New Balance is less than $30, the minimum payment is the full amount of the New
Balance. If the New Balance is $30 or more, the minimum payment is the sum of (1) any past due amount and (2) the greater
of: (a) $30 plus any late payment fees, or (b) 2.5% (1.75% for Agility Cash Credit Card, Clarity Credit Card, and Vivid
Rewards Credit Card) of the New Balance plus interest charges and any late payment fees. (ForVisa Signature Cards, in
addition to the foregoing amounts, your minimum payment amount will include the full amount by which your New Balance
exceeds your Credit Limit.) For all cards, making only the minimum payment will increase the amount of interest you
pay and the time it takes to repay your balance.
6.3 : Application of Payments. Payments credited to your Account during a billing period will be applied first to unpaid
interest charges, then to any fees, then to the balance having the highest Annual Percentage Rate (APR), and then to each
successive balance bearing the next higher APR until the payment is exhausted. You must pay at least the minimum
payment amount on your statement each month, even if you paid more than the minimum payment in an earlier month.
6.4 : Partial or Nonconforming Payments. You must not mark any payment with any kind of restrictive endorsement (such
as “paid in full” or “in settlement”). We can receive and credit your Account with the amount of any late payments, partial
payments or payments with restrictive endorsements without losing or waiving our right to receive timely payment in full.
6.5 : Delay of Available Credit. We apply your payment to your Account on the business day we receive it. Based on risk,
however, we may delay when that payment increases your Account’s available credit.
6.6 : Prepayment. You may repay all or any portion of the Outstanding Balance at any time without penalty.
7.0: RATES AND FEES: Annual Percentage Rates, Daily Periodic Rates and Fees and other disclosures are found on the
Table at the end of this agreement associated with your Card. The card carrier containing your Card also includes disclosures

specific to your Card Account. The terms of these disclosures are incorporated by reference into this Agreement. Review
these disclosures carefully and keep in your records.
8.0: DEFAULT. Your Account will be in default in any of the following circumstances: (a) your minimum payment is not
received at the proper address on or before the payment due date; (b) you fail to honor any other obligation under this
Agreement; (c) you die, file for bankruptcy, or become insolvent or generally unable to pay your debts; (d) you have furnished
false or misleading information on the Card Application; (e) you are in default under any other obligations you may owe to us;
or (f) we reasonably believe that you are unable or unwilling to honor all of your obligations under this Agreement. If your
Account is in default, we may declare the Outstanding Balance immediately due and payable, close your Account, and
recover all Cards and unused Credit Card Checks.
9.0: ATTORNEYS’ FEES; COLLECTION EXPENSES; VENUE IN UTAH. You agree to pay our reasonable collection
expenses, whether or not any court or arbitration proceedings are filed. Collection expenses include reasonable attorneys’
fees, the cost of Bank staff (including in house counsel), and out of pocket expenses (whether or not such expenses are
awardable as “court costs”). Unless prohibited by law, you agree that we may bring legal action against you in the State of
Utah, regardless of where you reside.
10.0 : INTEREST CHARGES. The following interest charges will apply whether before or after default, judgment, or the

closing of your Account.
10.1 : Periodic Interest Charges on Purchases, Balance Transfers and Cash Advances. We will not charge periodic
interest on purchases and balance transfers if you pay in full the total New Balance listed on the previous monthly statement
by the payment due date. Otherwise, we will charge periodic interest on each purchase and balance transfer from the date of
that purchase and balance transfer transaction. For every cash advance we charge interest from the date of that transaction.
There is no grace period during which a cash advance can be repaid without incurring an interest charge.
10.2 : Periodic Interest Charge Calculation(s). The interest charged on purchase transactions and balance transfers is
calculated separately from the interest charged on cash advances. Those separately calculated interest amounts are then
combined to determine the total interest charged for the billing period. For each category of transactions, interest is calculated
as follows. (1) First, we determine the “average daily balance” by taking each day’s beginning balance, adding any new
transactions, and subtracting any payments or credits. We do not add interest incurred during the billing period. The result is
the “daily balance.” We then add all the daily balances for the billing period and divide by the number of days in the billing
period. The result is the “average daily balance” (also called the “balance subject to interest charge” on your monthly
statement). (2) Second, we multiply the average daily balance by the number of days in the billing period. That number is then
multiplied by the daily periodic rate (DPR) for that category of transactions. The resulting number is the interest charged for
that category of transactions. If you are charged interest, the minimum interest charge will be no less than $1.
11.0 : ANNUAL PERCENTAGE RATE (“APR”) AND DAILY PERIODIC RATE (“DPR”). The APR and DPR for all

transactions are variable rates. The APR for a particular billing period is the sum of the Bank’s “Prime Rate” for that billing
period plus a “Margin.” The applicable Margin depends on the type of transaction and the type of credit card Account. Daily
periodic interest is calculated using the DPR. The DPR is 1/365th of the APR (or 1/366 in a leap year). The APR and DPR on
the Effective Date are disclosed on the card carrier. The actual APR in effect for each billing period, and for each category of
transactions, is disclosed in your monthly statement.
11.1 : “Prime Rate” and the “Index”. The Prime Rate is equal to, and varies with, an independent index (the “Index”). The
Index is the U.S. prime rate, as published by the Wall Street Journal. For any particular billing period, the Bank’s Prime Rate
is the published Index rate for the day that precedes by 6 business days the first calendar day of the calendar month in which
that billing period ends (If a range of rates is published for that date, the highest of the rates is used). If the Index becomes
unavailable, the Bank may designate a substitute Index in its sole discretion. Your APR and DPR, and the amount of your
minimum payment, will increase or decrease as the Index and Bank’s Prime Rate increase or decrease. The resulting
changes in your APR and DPR will take effect on the first day of your billing cycle the following month. You acknowledge that
the Bank’s Prime Rate does not mean the lowest rate at which Bank makes loans to any of its customers, now or in the
future.
11.2 : Military Lending Act (MLA). The Military Lending Act provides protections for members of the Armed Forces and their
dependents.
11.2.1 : Statement of MAPR (Military Annual Percentage Rate). Federal law provides important protections to members of
the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate
must include, as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application
fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a
credit card account).
11.2.2 : Oral Disclosures. Before accepting this Agreement, in order to hear important disclosures and payment information
about this Agreement, you may contact us at 1-844-210-3601.
11.2.3 : Applicability of Dispute Resolution Provision. The Jury Waiver, Class Action Waiver, and Arbitration Agreement in
the Dispute Resolution Provision set forth in this Agreement do not apply to Covered Borrowers.

12.0 : ACCOUNT AND OTHER FEES. Fees applicable as of the effective date of this Agreement are provided on the carrier

containing your card.
12.1 : Cash Advance Fee. Each new cash advance will be assessed a one-time fee. This fee is fully earned when assessed,
and added to the balance of the transaction.
12.2 : Balance Transfer Fee. Each new balance transfer will be assessed a one-time fee. This fee is added to the balance of
the transaction.
12.3 : Late Payment Fee. If your minimum payment is not received at the proper address by the payment due date, we
charge a late payment fee.
12.4 : Returned Payment Fee. If any check or other payment on your Account is dishonored or must be returned because it
cannot be processed, we charge a returned payment Fee. This fee is charged to your Account as a purchase item.
12.5 : Annual Account Fee. If your Account has an Annual Account Fee, generally it will be billed at account opening and
every twelve (12) months thereafter. The amount of the Annual Account Fee, if there is one on your Account, is listed in the
Table that appears on the carrier containing your Card.
12.6 : International Transaction Fee. Each international transaction will be assessed a fee of the U.S. dollar amount of the
transaction. This fee applies whether your transaction is originally made in U.S. dollars or converted to U.S. dollars from a
foreign currency. If you incur a charge in a foreign currency, the charge will be converted into U.S. dollars amount by Visa
International or MasterCard International Incorporated (as applicable) using its procedures in effect at the time. Under current
procedures, the foreign currency conversion rate is either a wholesale market rate or a government mandated rate in effect
one day prior to the date the transaction is processed by Visa or MasterCard. The currency conversion rate in effect on the
processing date may differ from the rate in effect on the transaction date or the posting date. This fee is added to the balance
of the transaction.
12.7 : Research Fee. If you request research on your Account (except for alleged billing errors by us), we may charge you a
research fee up to $25 per hour, plus $5 per photocopy. This fee is charged to your Account as a purchase item.
12.8 : Expedited Card Delivery Fee and Emergency Card Fee. We may charge a fee if you request “expedited delivery” of
a Card that requires an outside delivery service provider. We may also charge a fee if you request to personally obtain an
“emergency Card” at our Bankcard Center that requires special card production. The current amounts of these fees will be
disclosed at the time of your requests and before you agree to incur the charges. These fees are charged to your Account as
a purchase.
13.0 : Card Benefits.
13.1 : Priority Pass Select – for Reserve Cards Only. Reserve cardholders have access to 5 (five) free airport lounge visits

per membership year. Each member visit and each accompanying guest(s) visit applies against the free visit allowance. After
the free visits have been used, the member’s Reserve credit card will be charged a lounge visit fee of $27 per person per visit
for the member and each guest. Lounge benefits, services, and facilities differ by location and may only be available at an
additional charge. For more information, refer to the Priority Pass Select Agreement.
13.2 : Annual Travel Credit – for Reserve and Elite Cards Only. A statement credit will automatically be applied to your
account when your card is used for purchases in certain travel categories, up to an annual maximum of $250 for Reserve
cards or $100 for Elite cards. Annual Travel Credits are refreshed once yearly, the day after the anniversary of your account
open date. Qualifying purchases are those billed in the following merchant categories: Airlines, Rental Cars, Hotels, Cruise
Lines, Travel Agencies, Airport Terminals, Global Entry, TSA Precheck, and Gogo Inflight Wi-Fi. Identification of qualified
purchases is subject to merchants’ billing. Statement credit(s) will post to your account within 3 days of the settled purchase
and will appear on your monthly credit card billing statement within 1-2 billing cycles. With questions about your Annual Travel
Credit, or when your next Annual Travel Credit will become available, call the number on the back of your card. To qualify,
purchases must: 1) be completed using the full Visa 16-digit card number referenced during the Program period; 2) post to
the card account referenced during the Program period; 3) be identified as a qualifying purchase based on the information
available on Visa’s proprietary network (VisaNet); The merchant must submit the purchase transaction under the appropriate
merchant code, industry code, or required service or product identifier for the purchase to the identified as a qualifying travel
purchase. Your card must remain in good standing in order to receive the statement credit. Please allow 1-2 billing cycles to
receive your statement credit. Cardmembers are responsible for payment of all charges until the statement credit posts to the
account. Visa and Zions Bancorporation, N.A. reserve the right to modify or cancel this offer at any time and without notice.
14.0 : ADDITIONAL TERMS AND CONDITIONS APPLICABLE TO VISA SIGNATURE CARD:
14.1 : Credit Limit: The Credit Limit on your Card Account is disclosed on each monthly statement (your initial Credit Limit

appears on the carrier containing the Card). Bank may decline authorization for any use of your Card or Card Account that
would at any time cause your Outstanding Balance to exceed your Credit Limit. You are liable for the Outstanding Balance
even if it exceeds your Credit Limit. The Bank may decrease your Credit Limit at any time and will notify you of such change.
In addition, you may request a change in your Credit Limit by writing to the address shown on your monthly statement or by
calling 1-800-494-1698.
14.2 : Transfers: Not available on all Visa Signature cards, for cards with transfer capability the Card may be used at the
ATMs described above to make electronic transfers to or from your checking account, savings account or other consumer
asset account you may have at the Bank (subject to the Bank's rules, regulations and agreements governing such accounts,

which you should have already received and which are incorporated herein). You may request copies of these materials by
calling 1-888-758-5349. Transfers from your Card Account to your checking account, savings account or other consumer
asset account will be treated as a cash advance subject to a Cash Advance Transaction Fee.
14.3 : No Pre-Set Spending Limit: This Section 14.3 applies ONLY if you have a Visa Signature credit card OTHER
THAN the AmaZing Rewards® Signature, AmaZing Cash® Signature, Agility Cash Signature, Vivid Rewards
Signature, Premier, Elite, or Reserve credit card. There is no pre-set spending limit onyour card; no pre-set spending
limit does not mean unlimited spending. You agree to pay in full each month any amount thatexceeds your Credit Limit.
Each transaction that causes your new balance to exceed your Credit Limit will be evaluated for approval based on factors
such as card fraud, account history, revolving balances, payment history, credit record, prior cashadvances, and safety and
soundness considerations.
15.0: SECURITY INTEREST FOR SECURED ACCOUNTS. If you have a Secured Account, you have given the Bank a
security interest in a savings account at the Bank to secure payment of your Account. If you withdraw your funds from the
savings account, the Bank has the right to close your Account.
16.0: JOINT ACCOUNT. If your Account is in the name of more than one person, each such person is jointly and individually
liable for the full balance of all amounts due on your Account. Unless otherwise required by law, we may send all monthly
statements and other notices to any one of you. Such monthly statements and notices shall be deemed received by each and
all of you.
17.0 : INTERPRETATION; EFFECT.
17.1 : Duration; Survival. Your right to use the Card or make charges to your Account terminates when your Account is

closed. All of our rights and your obligations remain in effect until your Account is closed and your Outstanding Balance is
paid in full.
17.2 : Headings. The headings used in this Agreement are for convenience only and do not describe the entire scope or
intention of any portion of this Agreement.
17.3 : Integrated Agreement. This Agreement is the final written statement of your contract with us and cannot be
contradicted with evidence of any alleged oral agreement.
17.4 : Severability. If any part of this Agreement is unenforceable in any jurisdiction, the rest of this Agreement will remain
enforceable in that jurisdiction, and this entire Agreement shall remain enforceable in all other jurisdictions.
17.5 : Delay in Enforcement. Any delay by us in enforcing our rights or your obligations under this Agreement shall not be
deemed to release, waive, impair or discharge those rights or obligations.
17.6.: Assignment. You may not assign or transfer any portion of this Agreement or your Account without our prior written
permission. We may assign or transfer this Agreement, your Account or any portion thereof without notice to you. This
Agreement shall be binding upon the parties’ heirs, representatives, successors, and assigns.
17.7: GOVERNING LAW. THIS AGREEMENT AND YOUR ACCOUNT SHALL BE GOVERNED BY AND CONSTRUED IN
ACCORDANCE WITH THE LAWS OF THE UNITED STATES AND THE STATE OF UTAH, REGARDLESS OF
PRINCIPLES ON THE CONFLICT OF LAWS OR WHERE YOU RESIDE OR USE YOUR CARD.
18.0: DISCLOSURES OF INFORMATION. You consent to the release of personal data about you by the Bank to Visa
U.S.A., MasterCard, its Members, or their respective contractors for the purpose of providing the services described in this
Agreement, or emergency cash and emergency card replacement services.
19.0: NO ILLEGAL USE; OFAC SANCTIONS; INTERNET GAMBLING PROHIBITED. You must not use your Account, Card
or Credit Card Checks (a) for any illegal purpose; (b) for any transaction or in any manner that violates the law; (c) to conduct
transactions in any country or territory, or with any individual or entity, that is subject to economic sanctions administered and
enforced by the U.S. Department of the Treasury's Office of Foreign Assets Control (OFAC); or (d) to gamble on the Internet.
Display of a Visa logo, MasterCard logo, or other payment system logo by any person (e.g., an online merchant), or
acceptance of a transaction, does not mean that the transaction is lawful in all or any jurisdictions governing you, your
Account or the transaction. We have the right (but no obligation to you) to decline or block any transactions that we believe
may be prohibited under this section. We may also block use of your Card in countries or territories subject to OFAC
sanctions. You remain liable for, and you must indemnify us for, any transactions made in violation of this section.
20.0: AGREEMENT TO PAY. You agree to timely pay your Outstanding Balance, regardless of whether the charges were
incurred for personal, family, household, or business purposes. Your liability includes all charges made by all persons you
permitted or gave express, implied or apparent authority to use your Account, Card, or Credit Card Check -- even if you were
unaware of the charges or they caused you to exceed your Credit Limit.
21.0 : LIABILITY FOR UNAUTHORIZED USE. If your Card, Account number, or Credit Card Checks are lost or stolen, or if

you think that someone used or may use them without permission, you agree to notify the Bank immediately by calling 1-888758-5349. You may need to provide the Bank with certain information in writing to help the Bank determine what happened.
You are not liable for loss, theft, or unauthorized use of your Card, Card Account, or Credit Card Check if you notify the Bank
of any fraudulent transactions.

21.1 : Liability for Unauthorized Transactions: You are not liable for unauthorized use of your card for transactions if you

notify the Bank within two business days. In any case, your liability will not exceed $50.
22.0: REFUSAL TO HONOR TRANSACTIONS. We are not responsible or liable for any claim arising from or related to: (a)
the refusal or delay of any financial institution, merchant, or other person to honor or return your Card, Account or Credit Card
Check; (b) any goods or services obtained with your Card Account or Credit Card Check (except to the extent provided in
“Billing Rights Summary” notice near the end of this Agreement); (c) any unsuccessful attempt to obtain prior credit
authorization for any transaction when the authorization system is not working; or (d) any unsuccessful attempt to use the
Card in an ATM when the ATM or ATM network is not working or is temporarily closed or out of order.
23.0 : FINANCIAL AND CREDIT INFORMATION.
23.1 : Financial Statements. If we ask, you agree to furnish a current financial statement or to update the Card Application.

23.2: Credit Reports and Negative Credit Reporting. You hereby authorize us to make credit inquiries or investigations
about you, and to disclose to others credit information about your Account and your performance under this Agreement. We
may ask credit bureaus for reports of your credit history. At your request, we will tell you whether or not we have requested
such reports, and the names and addresses of the credit bureaus furnishing the reports. We may act through our agents, who
may act in our name or their own names.
23.3: Negative Credit Reporting. You are hereby notified and agree that we may report information about your
Account to credit bureaus. Late payments, missed payments, or other defaults on your account may be reflected in
your credit report. We may report through our agents (including but not limited to Zions Management Services Company)
who may act in our name or their own names. Please notify us if we report any inaccurate information about your Account(s)
to a credit bureau. Your written notice describing the specific inaccuracy should be sent to us at the following address: Zions
Bank, Bankcard Services, P.O. Box 25787, Salt Lake City, UT 84125-0787.
24.0: CHANGE OF NAME OR ADDRESS. You agree to promptly notify us in writing if you change your name, home
address, or mailing address. Until you notify us of updated information, we can send statements, notices and other
communications to the name and address in our records, and they will be deemed effectively delivered for all purposes. If
your mailing address appears to no longer be valid (e.g., mail is returned undelivered), you agree that we can suspend
mailing your statements, notices, and other communications until a valid address is received from you.
25.0: CLOSING YOUR ACCOUNT. You may close your Account at any time by notifying us in writing. We may close your
Account at any time without cause and without notice. When your Account is closed (whether by you or us), your right to use
the Account, Card and Credit Card Checks is automatically revoked. When your Account is closed, you must contact
everyone authorized to charge transactions to your Account (e.g., internet service providers, insurance companies, etc.) to
cancel future transactions. Such transactions may continue to be charged to your Account until you change the billing, and
you will be liable for those charges. If we believe that you have authorized a transaction or are attempting to use your Account
after you have requested to close your Account, we may (but are not required) allow the transaction to be charged to your
Account and you will be liable for the charges.
26.0: VISA ACCOUNT UPDATER. Card accounts are automatically enrolled in the Visa Account Updater (VAU) feature
required by Visa. This feature enables the electronic exchange of account information between Visa and participating
merchants to support payment continuity with credential-on-file merchants. Visa will securely provide updated credit card
information when your Card is re-issued for any reason or is closed. Updates are not guaranteed before the next billing cycle;
the Bank is not responsible for late, missed, or recurring payments. To opt-out of the Visa Account Updater feature for your
card account, please contact the Bank by calling the number on the back of your card.
27.0: DISPUTE RESOLUTION PROVISION.
This Dispute Resolution Provision contains a jury waiver, a class action waiver, and an arbitration agreement (or
judicial reference agreement, as applicable), set out in four Sections. READ IT CAREFULLY. No portion of this Dispute
Resolution section shall be interpreted or applied in a manner prohibited by governing law, but all other portions shall remain
in effect. Without limitation, no portion of this Dispute Resolution section shall require arbitration or other non-judicial
procedure to resolve any controversy or settle any claim arising out of any consumer credit transaction that is secured by a
dwelling (including a home equity line of credit secured by the consumer’s principal dwelling). The jury waiver, class action
waiver, and arbitration agreement in this Dispute Resolution provision do not apply to you if, as of the date of this
agreement, you are a member of the Armed Forces or a dependent of such member entitled to protection under the
Federal Military Lending Act.

SECTION 1: GENERAL PROVISIONS GOVERNING ALL DISPUTES.
27.1.1 : PRIOR DISPUTE RESOLUTION AGREEMENTS SUPERSEDED. This Dispute Resolution Provision shall
supersede and replace any prior “Jury Waiver,” “Class Action Waiver,” “Arbitration,” “Judicial Reference,” “Dispute
Resolution,” or similar alternative dispute agreement or provision between or among the parties.

27.1.2 : “DISPUTE” DEFINED. As used herein, the word “Dispute” includes, without limitation, any claim by either party

against the other party related to this Agreement, your Account, any transaction in your Account, any Card or a Credit Card
Check. “Dispute” includes, but is not limited to, matters arising from or relating to a deposit account, an application for or
denial of credit, warranties and representations made by a party, the adequacy of a party’s disclosures, enforcement of any
and all of the obligations a party hereto may have to another party, compliance with applicable laws and/or regulations,
performance or services provided under any agreement by a party, including without limitation disputes based on or arising
from any alleged tort or matters involving the employees, officers, agents, affiliates, or assigns of a party hereto.
If a third party is a party to a Dispute (such as a credit reporting agency, merchant accepting a credit card, junior lienholder or
title company), each party hereto agrees to consent to including that third party in any arbitration or judicial reference
proceeding for resolving the Dispute with that third party.
27.1.3 : JURY WAIVER. Each party waives its, his or her respective rights to a trial before a jury in connection with

any Dispute. All Disputes shall be decided by a judge sitting without a jury, unless submitted to binding arbitration pursuant
to Section 2 or judicial reference pursuant to Section 3.
27.1.4. AGREEMENT FOR BINDING ARBITRATION OR JUDICIAL REFERENCE (A) IF A CONSUMER PARTY
REQUESTS, OR (B) IF THE JURY TRIAL WAIVER IS NOT ENFORCED. A party who (in context of the Dispute) is a
consumer may timely elect to require that the Dispute be submitted as applicable to binding arbitration under Section 2 hereof
or binding judicial reference under Section 3 hereof. In addition, if this Agreement’s jury waiver is unenforceable by law, or
otherwise not enforced by a court exercising jurisdiction over the Dispute, then all parties hereby agree that the Dispute shall
be timely submitted as applicable to binding arbitration under Section 2 or binding judicial reference under Section 3. BY
AGREEING TO RESOLVE SPECIFIED FUTURE DISPUTES IN ARBITRATION OR BY JUDICIAL REFERENCE, THE
PARTIES ARE WAIVING THEIR RIGHT TO LITIGATE THOSE DISPUTES IN COURT.
In any lawsuit regarding a Dispute (a “Lawsuit”), following the service of a complaint, third-party complaint, cross-claim or
counterclaim or any answer thereto, any amendment to any of the above, or a ruling or entry of an order that has the effect of
invalidating this Agreement’s jury trial waiver (any of the foregoing, an “ADR Event”), then at any time prior to trial of the
Dispute, but not later than 30 days after the ADR Event, any party shall be entitled to move the court for an order (on the
grounds set forth in the preceding paragraph) compelling arbitration under Section 2 or judicial reference under Section 3, as
applicable, and staying or dismissing the Lawsuit pending such arbitration or judicial reference (an “ADR Order”). A party that
commenced or participated in the Lawsuit may nevertheless demand arbitration or judicial reference of a Dispute after an
ADR Event. Commencement or participation in the Lawsuit shall not operate as a waiver of the right to compel arbitration or
judicial reference. After entry of an ADR Order, the non-moving party shall commence the arbitration or judicial reference. The
moving party shall, at its discretion, also be entitled to commence arbitration or judicial reference but is under no obligation to
do so, and the moving party shall not in any way be adversely prejudiced by electing not to commence arbitration or judicial
reference.
27.1.5 : CLASS ACTION WAIVER. If permitted by applicable law, each party waives the right to litigate any Dispute as a

class action (either as a member of a class or as a representative) or to act as a private attorney general. The waiver
in this paragraph applies whether the proceeding is in a court, in an arbitration, or in a judicial reference proceeding.
This Agreement includes an arbitration agreement, which will have a substantial effect on your rights in the event of
a dispute with us. For example, if we elect to require you to arbitrate any claim, you will not have the right to a jury
trial or the right to participate in a class action in court or in arbitration. However, the arbitration agreement does not
apply if, as of the date of this agreement, you are a member of the armed forces or a dependent of such member
covered by the Federal Military Lending Act. Please see the section of this agreement labeled “Military Lending Act.”
27.1.6 : SURVIVAL: This Dispute Resolution Provision shall survive any termination, amendment, or expiration of this

Agreement, or any other relationship between the parties.
SECTION 2: TERMS GOVERNING THOSE DISPUTES SUBMITTED TO ARBITRATION. This Section 2 governs Disputes
that are submitted for binding arbitration under subsection 27.1.4. This Section 2 shall not apply to any Dispute that is
pending in a state or federal court located in the State of California, except to the extent such Dispute may also be pending in
a state or federal court located outside of California. An arbitrator shall have no authority to determine the validity,
enforceability, meaning and scope of this Dispute Resolution Provision, or (ii) class action claims brought by either party as a
class representative on behalf of others, or by a class representative on either party’s behalf as a class member, which
matters may be determined only by a court without a jury.
Arbitration under this provision shall be conducted before a single arbitrator through either the National Arbitration Forum
(“NAF”) or Judicial Arbitration and Mediation Service, Inc. (JAMS), as selected by the initiating party, in accordance with the
rules of NAF or JAMS (the “Administrator”). However, if the parties agree, a licensed attorney may be selected by the parties
to conduct the arbitration without an Administrator. If NAF and JAMS both decline to administer arbitration of the Dispute, and

if the parties are unable to mutually agree upon a licensed attorney to act as arbitrator without an Administrator, then either
party may file a Lawsuit and move for an ADR Order. The arbitrator, howsoever appointed, shall have expertise in the subject
matter of the Dispute. Venue for the arbitration proceeding shall be as stated elsewhere in this Agreement with respect to any
judicial proceedings between the parties. Absent such a provision, the arbitration shall be conducted at a location determined
by mutual agreement of the parties or by the Administrator if no agreement can be reached. The arbitrator shall apply the law
of the state specified in the agreement giving rise to the Dispute.
In any arbitration commenced by a consumer regarding a consumer Dispute, Lender or Bank shall pay one half of the
Administrator's initial filing fee, up to $500. If Lender or Bank commences arbitration or is the moving party obtaining an ADR
Order, Lender or Bank shall pay all Administrator and arbitrator fees, regardless of whether or not the consumer is the
prevailing party in such arbitration, unless such Dispute involves a claim for damages by a consumer and is found by the
arbitrator to be frivolous. For this paragraph, “consumer Dispute” shall mean a Dispute involving credit or services provided by
Lender or Bank, primarily for personal, family or household purposes, in which the claim for damages is less than $75,000.
The Administrator and the arbitrator shall have the authority, to the extent practicable, to take any reasonable action to
require the arbitration proceeding to be completed within 180 days of commencing the arbitration. The arbitrator: (i) will render
a decision and any award applying applicable law; (ii) will hear and rule on appropriate dispositive motions for judgment on
the pleadings, for failure to state a claim, or for full or partial summary judgment; (iii) will give effect to any statutory or
contractual limitations period (e.g., any statute of limitations) in determining any Dispute or defense; (iv) shall have the
authority to impose sanctions on any party that fails to comply with time periods imposed by the Administrator or the
arbitrator, including, without limitation, the sanction of entering a final award against the party that fails to comply; (v) shall
have authority to award costs and fees (including attorneys' fees and costs, arbitration administration fees and costs, and
arbitrator(s)' fees) to the extent permitted by law; (vi) shall recognize and honor claims of privilege recognized at law; and (vii)
with regard to motions and the arbitration hearing, shall apply the Federal Rules of Evidence. The doctrines of compulsory
counterclaim, res judicata, and collateral estoppel shall apply to any arbitration proceeding hereunder.
Commencement of an arbitration by any party shall not prevent any party from at any time (i) seeking and obtaining from a
court of competent jurisdiction (notwithstanding ongoing arbitration) provisional or ancillary remedies including but not limited
to injunctive relief, temporary restraining orders, property preservation orders, foreclosure, sequestration, eviction,
attachment, replevin, garnishment, and/or the appointment of a receiver; or (ii) availing itself of any self-help remedies such
as setoff and repossession rights or non-judicial foreclosure of collateral. The exercise of such rights shall not constitute a
waiver of the right to submit any Dispute to arbitration.
Judgment upon an arbitration award may be entered in any court having jurisdiction except that, if the arbitration award
exceeds $200,000, any party shall be entitled to a de novo appeal of the award before a panel of three arbitrators. To allow
for such appeal, if the award (including Administrator, arbitrator, and attorney’s fees and costs) exceeds $200,000, the
arbitrator will issue a written, reasoned decision supporting the award, including a statement of authority and its application to
the Dispute. A request for de novo appeal must be filed with the arbitrator within 30 days following the date of the arbitration
award; if such a request is not made within that time period, the arbitration award shall become final and binding. On appeal,
the arbitrators shall review the award de novo, meaning that they shall reach their own findings of fact and conclusions of law
rather than deferring in any manner to the original arbitrator. Appeal of an arbitration award shall be pursuant to the rules of
the Administrator; if the Administrator has no such rules, then the JAMS arbitration appellate rules shall apply.
To request information on how to submit an arbitration claim, or to request a copy of an Administrator’s rules or fee schedule,
please contact the Administrators as follows: JAMS: 1920 Main St., Suite 300, Irvine, CA 92614, Phone: (949) 224-1810,
Fax: (949) 224-1818, E-mail: info@jamsadr.com, Website: www.jamsadr.com; NAF: National Arbitration Forum, P.O.
Box 50191, Minneapolis, MN 55405-0191, Phone (800) 474-2371, E-Mail: info@adrforum.com, Website: www.adrforum.com.
Arbitration under this provision concerns a transaction involving interstate commerce and shall be governed by the Federal
Arbitration Act, 9 U.S.C. § 1 et seq. If the terms of this Section 2 vary from the Administrator’s rules, this Section 2 shall
control.
SECTION 3: TERMS GOVERNING THOSE DISPUTES SUBMITTED TO JUDICIAL REFERENCE. This Section 3 governs
Disputes that are submitted under subsection 27.1.4 for judicial reference in accordance with California Code of Civil
Procedure, Section 638, et seq. This Section 3 may be invoked only with regard to Disputes filed in state or federal courts
located in the State of California. In no event shall this Section 3 diminish the force or effect of any venue selection or
jurisdiction provision in this Agreement or any Related Document. Nothing herein shall preclude a party from moving (prior to
the court ordering judicial reference) to dismiss, stay or transfer the suit to a forum outside California on grounds that
California is an improper, inconvenient or less suitable venue. If such motion is granted, this Section 3 shall not apply to any
proceedings in the new forum.
The referee shall be a retired judge, agreed upon by the parties, from either the American Arbitration Association (AAA) or
Judicial Arbitration and Mediation Service, Inc. (JAMS). If the parties cannot agree on the referee, the party who initially

selected the reference procedure shall request a panel of ten retired judges from either AAA or JAMS, and the court shall
select the referee from that panel. If AAA and JAMS are unavailable to provide this service, the court may select a referee by
such other procedures as are used by that court. The referee shall be appointed to sit with all of the powers provided by law,
including the power to hear and determine any or all of the issues in the proceeding, whether of fact or of law, and to report a
statement of decision. Only for this Section 3, “Dispute” includes matters regarding the validity, enforceability, meaning, or
scope of this Section, and class action claims brought by either party as a class representative on behalf of others and claims
by a class representative on either party’s behalf as a class member. The parties agree that time is of the essence in
conducting the judicial reference proceeding set forth herein. Except as otherwise provided in this paragraph, the costs of the
judicial reference proceeding, including the fee for the court reporter, shall be borne equally by the parties as the costs are
incurred, unless otherwise awarded by the referee. If Lender or Bank commences a judicial reference proceeding regarding a
consumer Dispute, Lender or Bank shall pay all referee fees, regardless of whether or not the consumer is the prevailing
party in such proceeding, unless such Dispute involves a claim for damages by a consumer and is found by the referee to be
frivolous. For purposes of this paragraph, “consumer Dispute” shall mean a Dispute involving credit or services provided by
Lender or Bank, primarily for personal, family or household purposes, in which the claim for damages is less than $75,000.
The referee shall hear all pre-trial and post-trial matters (including without limitation requests for equitable relief), prepare a
statement of decision with written findings of fact and conclusions of law and apportion costs as appropriate. The referee shall
be empowered to enter equitable relief as well as legal relief, provide all temporary or provisional remedies, enter equitable
orders that are binding on the parties and rule on any motion that would be authorized in a trial, including without limitation
motions for summary adjudication. Judgment upon the award shall be entered in the court in which such proceeding was
commenced and all parties shall have full rights of appeal. This provision will not be deemed to limit or constrain Lender’s or
Bank’s right of offset, to obtain provisional or ancillary remedies, to interplead funds in the event of a dispute, to exercise any
security interest or lien Bank or Lender may hold in property, or to comply with legal process involving accounts or other
property held by Bank or Lender.
SECTION 4: RELIANCE. Each party (i) certifies that no one has represented to such party that the other party would not
seek to enforce a jury waiver, class action waiver, arbitration provision or judicial reference provision in the event of suit, and
(ii) acknowledges that it and the other party have been induced to enter into this Agreement by, among other things, material
reliance upon the mutual waivers, agreements, and certifications in the four Sections of this DISPUTE RESOLUTION
PROVISION.
28.0 : BILLING RIGHTS SUMMARY. This notice contains important information about your rights and the Bank's

responsibilities under the Fair Credit Billing Act.
28.1 : Notify Us in Case of Errors or Questions About Your Bill. If you think your bills is wrong, or if you need more
information about a transaction on your bill, write to us in a separate letter at the address indicated in the Billing Rights
Summary on your Statement or the address below. We must hear from you no later than 60 days after we sent you the first
bill on which the error or problem appeared. You can telephone us, but doing so will not preserve your rights and we will not
be required to investigate any potential errors. In your letter, include the following information:
• Your name and account number.
• The date and dollar amount of the suspected error.
• Describe the error, and explain if you can, why you believe there is an error. If you need more information,
describe the item you are not sure about.
If you have authorized us to pay your Account automatically from your savings or checking account or you have authorized an
automatic payment on your Account, you can stop the payment on any amount you think is wrong. To stop the payment your
letter must reach us three business days before the automatic payment is scheduled to occur.
28.2 : Your Rights and Our Responsibilities After We Receive Your Written Notice. We must acknowledge your letter
within 30 days, unless we corrected the error by then. Within 90 days, we must either correct the error or explain why we
believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question, or report you as delinquent. We can continue
to bill you for the amount you question, including interest charges, and we can apply any unpaid amount against your Credit
Limit. You do not have to pay any questioned amount while we are investigating, but you are still obligated to pay the parts of
your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay the amount in question or any interest charges related
to any questioned amount. If we didn’t make a mistake, you may have to pay interest charges, and you will have to make any
missed payments on the questioned amount. In either case, we will send you a statement of the amount you owe and the
date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our explanation does not
satisfy you and you write to us within ten (10) days telling us that you still refuse to pay, we must tell anyone we report you to
that you have a question about your bill. And, we must tell you the name of anyone we reported you to. We must tell anyone
we report you to that the matter has been settled between us when it finally is. If we don’t follow these rules, we can’t collect
the first $50 of the questioned amount, even if your bill was correct.
28.3 : Your Rights If You Are Dissatisfied With Your Credit Card Purchases. If you are dissatisfied with the goods or
services that you have purchased with your Card and you have tried in good faith to correct the problem with the merchant,

you may have the right not to pay the remaining amount due on the purchase. To use this right, all of the following must be
true:
(1) The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
(2) You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that access your credit card account do not qualify.
(3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Bankcard Services
P.O. Box 25787
Salt Lake City, UT 84125-0787
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
Revised 02/01/2021

M-126718

A division of Zions Bancorporation, N.A. Member FDIC

ADDENDUM 1 – Disclosure Statement for Nevada State Bank
This Addendum applies to the following Zions Bancorporation, N.A. dba Nevada State Bank credit cards: AmaZing
Rewards® Signature, AmaZing Rewards®, AmaZing Cash® Signature, AmaZing Cash®, AmaZing Rate®, and AmaZing
Launch® (this product is no longer offered), and AmaZing Launch® Secured Credit Cards.
Interest Rates and Interest Charges
Purchases Annual Percentage Rate
(APR)

Prime Rate + 5.99% to Prime Rate + 15.99%
based on the card type and your creditworthiness.
These APRs will vary with the market based on the Prime Rate.

APR for Balance Transfers

Prime Rate + 5.99% to Prime Rate + 15.99% based on the card type and your
creditworthiness.
These APRs will vary with the market based on the Prime Rate.

APR for Cash Advances

Prime Rate + 15.99%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases and balance transfers if you pay your entire
balance due by the due date each month. We will begin charging interest on cash
advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Account Fee

$25 for AmaZing Secured Launch Card.
None for all other card types named in this Table.

Transaction Fees:
▪

Cash Advance

3% of the amount of each transaction, but not less than $10.

▪

Balance Transfer

3% of the amount of each transaction, but not less than $5.

▪

International Transaction

3% of the U.S dollar amount of each transaction, whether originally made in U.S.
dollars or converted from a foreign currency.

Penalty Fees:
▪

Late Payment

Up to $25

▪

Returned Payment

Up to $25

How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See your
account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

ADDENDUM 2 – Disclosure Statement for Nevada State Bank
This Addendum applies to the following Zions Bancorporation, N.A. dba Nevada State Bank credit cards: Premier,
Elite, and Reserve.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime Rate + 10.99% to Prime Rate + 18.99% for
Premier and Elite Cards

Prime Rate + 10.99% to Prime Rate + 20.99% for
Reserve Cards
These APRs will vary with the market based on the Prime Rate.
APR for Balance Transfers

For the following intro APR to apply, balance transfer request(s) must be received
within 60 days of your Card Account opening date:
0.00 % intro APR for 6 months on balance(s) transferred within 60 days from a nonZions Bancorporation, N.A. account. After that, your balance transfer APR will be:
Prime Rate + 10.99% to Prime Rate + 20.99%, depending on the APR
applicable to your Account.
These APRs will vary with the market based on the Prime Rate.
•

APR for Cash Advances
Penalty APR and When It
Applies
Paying Interest

Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

7.00% Fixed on balances transferred from your existing Zions
Bancorporation, N.A. Credit Card Account to a new Premium product.
Prime Rate + 19.99% to Prime Rate + 20.99%
This APR will vary with the market based on the Prime Rate.
None
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases and balance transfers if you pay your entire
balance due by the due date each month. We will begin charging interest on cash
advances on the transaction date.
If you are charged interest, the charge will be no less than $1
To learn more about factors to consider when applying for or using a credit
card, visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Account Fee

•
•
•

Premier: $95 (waived first year)
Elite: $195 (waived first year)
Reserve: $450; $50 per year for each additional person on account

Transaction Fees:
▪

Balance Transfer

3% of the amount of each transaction, but not less than $5.

▪

Cash Advance

5% of the amount of each transaction, but not less than $10.

▪

International Transaction

None

Penalty Fees:
▪

Late Payment

Up to $35

▪

Returned Payment

Up to $35

Priority Pass Select Fees:
(for Reserve cards only)
▪

Membership Fee

$0

▪

Lounge Access Fee

$27 per person per visit after your five (5) complimentary visits per 12-month Priority
Pass Select Membership period.

How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See the card agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the card agreement.

ADDENDUM 3 – Disclosure Statement for Nevada State Bank
This Addendum applies to the following Zions Bancorporation, N.A. dba Nevada State Bank credit cards: Vivid
Rewards, Agility Cash, and Clarity credit cards.

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

0.00% intro APR for 6 months from date of Card Account opening. After that,
your APR will be:

Prime Rate + 9.00% to Prime Rate + 21.00% for Vivid
Rewards and Agility Cash Cards

Prime Rate + 6.50% to Prime Rate + 15.50% for Clarity
APR for Balance Transfers

Cards
These APRs will vary with the market based on the Prime Rate.
For the following intro APR to apply, balance transfer request(s) must be received
within 60 days of your Card Account opening date:
0.00% intro APR: for 12 months on Vivid Rewards and Agility Cash; for 15 months on
Clarity on balance(s) transferred from a non-Zions Bancorporation, N.A. account.
After that, your balance transfer APR will be:
Prime Rate + 6.50% to Prime Rate + 21.00%, depending on the APR
applicable to your Account.
These APRs will vary with the market based on the Prime Rate.
•

APR for Cash Advances
Penalty APR and When It
Applies
Paying Interest

Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

7.00% Fixed on balances transferred from your existing Zions Bancorporation,
N.A. Credit Card Account to a new Agility Cash, Clarity, or Vivid Rewards product.

Prime Rate + 18.00% to Prime Rate + 22.00%
This APR will vary with the market based on the Prime Rate.
None
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases and balance transfers if you pay your entire
balance due by the due date each month. We will begin charging interest on cash
advances on the transaction date.
If you are charged interest, the charge will be no less than $1
To learn more about factors to consider when applying for or using a credit
card, visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Account Fee
Transaction Fees:

None

▪

Balance Transfer

3% of the amount of each transaction, but not less than $10

▪

Cash Advance

4% of the amount of each transaction, but not less than $10 for Vivid and Agility
Cards
3% of the amount of each transaction, but not less than $10 for Clarity Cards

▪

International Transaction

None

Penalty Fees:
▪

Late Payment

Up to $35 for Vivid and Agility Cards; None for Clarity Cards

▪

Returned Payment

Up to $30 for Vivid and Agility Cards; None for Clarity Cards

How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See the card agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the card agreement.

ADDENDUM 4 – Disclosure Statement for Nevada State Bank
This Addendum applies to the following Zions Bancorporation, N.A. dba Nevada State Bank credit cards: Visa
Signature, Visa Platinum, Visa Classic, The Private Bank, Executive Banking, and MasterCard Credit Cards. These products
are no longer available.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Prime Rate + 3.75% to Prime Rate + 9.00% based on
the card type and your creditworthiness.
The APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

Prime Rate + 3.75% to Prime Rate + 9.00%
The APR will vary with the market based on the Prime Rate.

APR for Cash Advances

Prime Rate + 15.99%
The APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases and balance transfers if you pay your entire
balance due by the due date each month. We will begin charging interest on cash
advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Account Fee

Visa Platinum, Visa Classic, and MasterCard: None
Visa Signature: $75 (first year is waived)
Visa Private Banking: None
Executive Banking Visa Signature: $75 (first year is waived)
Secured Visa Classic: $25

Transaction Fees:
▪

Cash Advance

3% of the amount of the transaction, but not less than $5.

▪

Balance Transfer

2% of the transfer amount but not less than $5 or more than $50.

▪

International Transaction

2% of the U.S dollar amount of the transaction, whether originally made in U.S.
dollars or converted from a foreign currency.

Penalty Fees:
▪

Late Payment

Up to $25

▪ Returned Payment
Up to $25
How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See your
account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

